Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
REVIEW OF UPMC PRESBYTERIAN
  SHADYSIDE FOR CALENDAR
  YEARS 2008 THROUGH 2011



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky
                                               Regional Inspector General

                                                     September 2013
                                                      A-03-12-06105
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

UPMC Presbyterian Shadyside did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in overpayments of approximately $796,000 over
4 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether UPMC Presbyterian Shadyside
(Presbyterian Shadyside) complied with Medicare requirements for billing inpatient and
outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Presbyterian Shadyside, which is part of the UPMC health system, is a 1,532-bed acute care
hospital located at two campuses, UPMC Presbyterian and UPMC Shadyside, in Pittsburgh,
Pennsylvania. Medicare paid Presbyterian Shadyside approximately $1.05 billion for 62,755
inpatient and 398,989 outpatient claims for services provided to beneficiaries during CYs 2008
through 2011 based on CMS’s National Claims History data.

Our audit covered $3,702,396 in Medicare payments to Presbyterian Shadyside for 239 claims
that we judgmentally selected as potentially at risk for billing errors, consisting of 156 inpatient
and 83 outpatient claims.

WHAT WE FOUND

Presbyterian Shadyside complied with Medicare billing requirements for 125 of the 239 inpatient
and outpatient claims we reviewed. However, Presbyterian Shadyside did not fully comply with
Medicare billing requirements for 1 claim that did not result in an overpayment and 113 claims
that resulted in overpayments of $796,202 for CYs 2008 through 2011. Specifically, 66 inpatient
claims had billing errors resulting in overpayments of $558,754, and 47 outpatient claims had
billing errors resulting in overpayments of $237,448. These errors occurred primarily because



Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                             i
Presbyterian Shadyside did not have adequate controls to prevent the incorrect billing of
Medicare claims within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that Presbyterian Shadyside:

    •   refund to the Medicare contractor $796,202, consisting of $558,754 in overpayments for
        66 incorrectly billed inpatient claims and $237,448 in overpayments for 47 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

PRESBYTERIAN SHADYSIDE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Presbyterian Shadyside generally agreed with our
findings and identified actions taken to address them. Presbyterian Shadyside disagreed that it
incorrectly billed one claim for which Medicare was the secondary payer and stated that it had
combined the billed charges for three operating procedures on a single billed line at the request
of the Medicare contractor. However, Presbyterian Shadyside agreed that the Medicare
contractor overpaid the claim by $24,851.

Before August 1, 2000, providers were instructed to combine the charges for multiple surgical
procedures and submit the charges on the one line with the most significant HCPCS code.
However, with the implementation of the Medicare outpatient prospective payment system on
August 1, 2000, providers were required to bill charges for each procedure separately. As noted
in the report, during the audit, Presbyterian Shadyside submitted the claim with the appropriate
charges for each of the three procedures and Medicare determined that, as secondary payer, it
owed no payment for the claim. Therefore, we maintain that our finding is valid.




Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                           ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicare Program ............................................................................................1
                 Hospital Inpatient Prospective Payment System .....................................................1
                 Hospital Outpatient Prospective Payment System ...................................................1
                 Hospital Claims at Risk for Incorrect Billing ..........................................................2
                 Medicare Requirements for Hospital Claims and Payments ...................................2
                 Presbyterian Shadyside ............................................................................................2

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ................................................................3
                   Incorrectly Billed as Inpatient ..................................................................................3
                   Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ...4
                   Incorrectly Billed Diagnosis-Related Group Codes ................................................5

           Billing Errors Associated With Outpatient Claims..............................................................5
                   Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ...5
                   Incorrectly Billed as Outpatient ...............................................................................6
                   Incorrectly Billed Medicare Secondary Payer Claim ..............................................6
                   Noncovered Dental Services ....................................................................................7
                   Incorrectly Billed Healthcare Common Procedure Coding System Code ...............7
                   Incorrectly Billed Outpatient Services With Modifier -59 ......................................7

RECOMMENDATIONS .................................................................................................................7

PRESBYTERIAN SHADYSIDE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................................8

APPENDIXES

           A: Audit Scope and Methodology ......................................................................................9

           B: Results of Review by Risk Area ..................................................................................11

           C: Presbyterian Shadyside Comments ..............................................................................12



Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                                                          iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether UPMC Presbyterian Shadyside (Presbyterian Shadyside)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. CMS contracts with Medicare contractors to, among other things, process
and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                         1
Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of hospital claims at risk for
noncompliance:

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient short stays,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims billed during inpatient stays,

    •   outpatient dental services,

    •   outpatient claims billed for Lupron injections, and

    •   outpatient claims billed with modifier -59.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

Presbyterian Shadyside

Presbyterian Shadyside, which is part of the UPMC health system, is a 1,532-bed acute care
hospital located at two campuses, UPMC Presbyterian and UPMC Shadyside, in Pittsburgh,
Pennsylvania. Medicare paid Presbyterian Shadyside approximately $1.05 billion for 62,755
inpatient and 398,989 outpatient claims for services provided to beneficiaries during CYs 2008
through 2011 based on CMS’s National Claims History data.




Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                               2
HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,702,396 in Medicare payments to Presbyterian Shadyside for 239 claims
that we judgmentally selected as potentially at risk for billing errors. These 239 claims consisted
of 156 inpatient and 83 outpatient claims with dates of service in CYs 2008 through 2011 (audit
period). We focused our review on the risk areas that we had identified as a result of previous
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements, but
did not use medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by Presbyterian Shadyside for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                   FINDINGS

Presbyterian Shadyside complied with Medicare billing requirements for 125 of the 239 inpatient
and outpatient claims we reviewed. However, Presbyterian Shadyside did not fully comply with
Medicare billing requirements for 1 claim that did not result in an overpayment 2 and 113 claims
that resulted in overpayments of $796,202 for the audit period. Specifically, 66 inpatient claims
had billing errors resulting in overpayments of $558,754, and 47 outpatient claims had billing
errors resulting in overpayments of $237,448. These errors occurred primarily because
Presbyterian Shadyside did not have adequate controls to prevent the incorrect billing of
Medicare claims within the selected risk areas that contained errors. For the results of our
review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Presbyterian Shadyside incorrectly billed Medicare for 66 of 156 selected inpatient claims,
which resulted in overpayments of $558,754.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)).

For 39 of the 156 selected claims, Presbyterian Shadyside incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. Presbyterian Shadyside officials stated that Case Management staff either made

2
 This claim did not result in an overpayment because the incorrectly billed service was paid at the same rate as the
correct service.


Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                             3
inappropriate decisions when reviewing patient admission status or failed to review the status
due to time constraints. As a result of these errors, Presbyterian Shadyside received
overpayments of $419,260. 3

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). Federal regulations state, “All payments to providers of services
must be based on the reasonable cost of services …” (42 CFR § 413.9). The Manual states that
to bill correctly for a replacement device that was provided with a credit, hospitals must code
Medicare claims with a combination of condition code 49 or 50, along with value code “FD”
(chapter 3, § 100.8). The CMS Provider Reimbursement Manual (PRM) reinforces these
requirements in additional detail (Pub. No. 15-1). 4

For 25 of the 156 selected claims, Presbyterian Shadyside made errors related to manufacturer
credits for replaced medical devices. Specifically, for 21 claims, Presbyterian Shadyside
received reportable credits from manufacturers for replaced medical devices but did not adjust its
inpatient claims with the proper condition or value codes to reduce payment as required. For
three claims, Presbyterian Shadyside did not obtain credits for replaced medical devices for
which credits were available under the terms of the manufacturers’ warranties. The remaining
claim included two replaced medical devices, one for which Presbyterian Shadyside received a
reportable credit from the manufacturer but did not adjust its inpatient claim with the proper
value code, and one for which Presbyterian Shadyside did not obtain a credit that was available
under the terms of the manufacturer’s warranty. Presbyterian Shadyside officials stated that the
errors occurred because Presbyterian Shadyside had inadequate controls to identify, obtain, and
properly report credits from medical device manufacturers. As a result of these errors,
Presbyterian Shadyside received overpayments of $105,843.




3
  Presbyterian Shadyside may be able to bill Medicare Part B for all services (except for services that specifically
require an outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a
hospital outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing
Medicare Part B would have on the overpayment amount because these services had not been billed or adjudicated
by the Medicare administrative contractor prior to the issuance of our report.
4
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service.” “If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program.” (part 1, § 2102.1). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits or payments available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment supplied.”


Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                             4
Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 2 of the 156 selected claims, Presbyterian Shadyside billed Medicare for incorrect DRG
codes. Presbyterian Shadyside officials attributed this to human error in the manual coding
process. As a result of these errors, Presbyterian Shadyside received overpayments of $33,651.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Presbyterian Shadyside incorrectly billed Medicare for 47 of 83 selected outpatient claims,
which resulted in overpayments of $237,448.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 5 Federal
regulations also require that all payments to providers of services must be based on the
reasonable cost of services (42 CFR §413.9). As described on page 4 of this report, the PRM,
part 1, chapter 21, reinforces these requirements in additional detail.

For 13 of the 83 selected claims, Presbyterian Shadyside made errors related to manufacturer
credits for replaced medical devices. Specifically, for 11 claims, Presbyterian Shadyside
received reportable credits from manufacturers for replaced medical devices but did not properly
report the “FB” modifier or reduced charges on its claims. For the remaining two claims,
Presbyterian Shadyside did not obtain credits for replaced medical devices for which credits
were available under the terms of the manufacturers’ warranties. Presbyterian Shadyside
officials stated that the errors occurred because Presbyterian Shadyside had inadequate controls
to identify, obtain, and properly report credits from medical device manufacturers. As a result of
these errors, Presbyterian Shadyside received overpayments of $165,303.




5
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                   5
Incorrectly Billed as Outpatient

Certain items and nonphysician services furnished to inpatients are covered under Part A and
consequently are covered by the inpatient prospective payment rate (the Manual, chapter 3,
§ 10.4).

For 24 of the 83 selected claims, Presbyterian Shadyside incorrectly billed Medicare Part B for
outpatient services provided during inpatient stays. For 19 claims, Presbyterian Shadyside
provided services, such as cardiac catheterization and gastrointestinal procedures, to inpatients of
other UPMC hospitals. Those services should have been included on the other hospitals’
inpatient (Part A) claims to Medicare. For the remaining five claims, the services should have
been included on Presbyterian Shadyside’s inpatient claims to Medicare. Presbyterian Shadyside
officials stated that the errors occurred either because it did not have an alert to notify the
registrar that the patient was an inpatient of another UPMC hospital, or the registrar bypassed an
alert when the patient was an inpatient of Presbyterian Shadyside. As a result of these errors,
Presbyterian Shadyside received overpayments of $33,714.

Incorrectly Billed Medicare Secondary Payer Claim

When an insurer pays primary benefits, Medicare (as secondary payer) may supplement those
payments, provided the insurer’s payment is less than the provider’s charges and less than
Medicare’s allowed payment amount, and the provider is not obligated to accept the insurer’s
amount as payment in full. 6 The MSP Manual states: “The provider completes the bill in the
usual manner and determines the charges including those covered by the primary payer’s
payment. The amount paid by the primary payer for Medicare covered services is reported in the
appropriate value code and amount” (chapter 3, § 40.1.2). Medicare calculates its payment for
Secondary Payer claims by apportioning the primary payer’s claim payment using the billed
charge amount for each covered service (MSP Manual, chapter 5, § 50.2.1).

For 1 of the 83 selected claims, Presbyterian Shadyside incorrectly billed Medicare for three
operating room procedures. Specifically, Presbyterian Shadyside charged the primary payer
$17,407 for each of the three services as separate line items, but charged Medicare $52,221 (the
aggregate amount of the three services) for just one of the services and included no charge on the
lines for the other two services. Because the charge for two of the services was zero, Medicare
did not allocate any of the primary payer’s payment to those lines and paid Presbyterian
Shadyside the full allowed amount for those two services ($24,851). 7

Presbyterian Shadyside officials did not provide a cause because it did not agree with this billing
error. As a result of this error, Presbyterian Shadyside received an overpayment of $24,851.




6
    Pub. No. 100-05, Medicare Secondary Payer Manual (MSP Manual), chapter 3, section 30.3.
7
 During the audit, Presbyterian Shadyside submitted the claim with the appropriate charges for each of the three
services and Medicare determined that, as secondary payer, it had overpaid Presbyterian Shadyside $24,851.


Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                           6
Noncovered Dental Services

The Act precludes payment under Part A or Part B for any expense incurred for items or services
where such expenses are for services in connection with the care, treatment, filling, removal, or
replacement of teeth or structures directly supporting teeth (the Act, § 1862(a)(12)).

For 6 of the 83 selected claims, Presbyterian Shadyside incorrectly billed Medicare for the
treatment or removal of teeth. Presbyterian Shadyside officials attributed this to human error in
reviewing dental claims for noncovered services. As a result of these errors, Presbyterian
Shadyside received overpayments of $10,574.

Incorrectly Billed Healthcare Common Procedure Coding System Code

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). In addition, the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).

For 1 of the 83 selected claims, Presbyterian Shadyside billed Medicare for an incorrect HCPCS
code for the drug Lupron. Lupron is packaged in two separate dosage levels, each of which had
its own HCPCS code. Presbyterian Shadyside administered the dose for one HCPCS code but
billed for the other. Presbyterian Shadyside officials attributed this to human error by clinical
department staff when responding to a system edit for the drug. As a result of this error,
Presbyterian Shadyside received an overpayment of $1,700.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states: “The ‘-59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1).

For 2 of the 83 selected claims, Presbyterian Shadyside incorrectly billed Medicare for HCPCS
codes with modifier -59, for services that were already included in the payments for other
services billed on the same claim. Presbyterian Shadyside officials attributed this to errors made
by the department performing the services when reviewing claims billed with HCPCS code pairs
for the appropriate modifier. As a result of these errors, Presbyterian Shadyside received
overpayments of $1,306.

                                      RECOMMENDATIONS

We recommend that Presbyterian Shadyside:

    •   refund to the Medicare contractor $796,202, consisting of $558,754 in overpayments for
        66 incorrectly billed inpatient claims and $237,448 in overpayments for 47 incorrectly
        billed outpatient claims, and



Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                          7
    •   strengthen controls to ensure full compliance with Medicare requirements.

                      PRESBYTERIAN SHADYSIDE COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Presbyterian Shadyside generally agreed with our
findings and identified actions taken to address them. Presbyterian Shadyside disagreed that it
incorrectly billed one claim for which Medicare was the secondary payer and stated that it had
combined the billed charges for three operating procedures on a single billed line at the request
of the Medicare contractor. However, Presbyterian Shadyside agreed that the Medicare
contractor overpaid the claim by $24,851.

Before August 1, 2000, providers were instructed to combine the charges for multiple surgical
procedures and submit the charges on the one line with the most significant HCPCS code.
However, with the implementation of the Medicare outpatient prospective payment system on
August 1, 2000, providers were required to bill charges for each procedure separately. As noted
in the report, during the audit, Presbyterian Shadyside submitted the claim with the appropriate
charges for each of the three procedures and Medicare determined that, as secondary payer, it
owed no payment for the claim. Therefore, we maintain that our finding is valid.

Presbyterian Shadyside’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                           8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $3,702,396 in Medicare payments to Presbyterian Shadyside for 239 claims
that we judgmentally selected as potentially at risk for billing errors. These 239 claims consisted
of 156 inpatient and 83 outpatient claims with dates of service in CYs 2008 through 2011 (audit
period).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements, but did
not use medical review to determine whether the services were medically necessary.

We limited our review of Presbyterian Shadyside’s internal controls to those applicable to the
inpatient and outpatient areas of review because our objective did not require an understanding
of all internal controls over the submission and processing of claims. We established reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Presbyterian Shadyside for Medicare reimbursement.

Our audit included contacting Presbyterian Shadyside in Pittsburgh, Pennsylvania, during June
2012 through July 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Presbyterian Shadyside’s inpatient and outpatient paid claim data from CMS’s
        National Claims History file for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 239 claims (156 inpatient and 83 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the medical record documentation provided by Presbyterian Shadyside to
        support the selected claims;



Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                             9
    •   requested that Presbyterian Shadyside conduct its own review of the selected claims to
        determine whether the services were billed correctly;

    •   reviewed Presbyterian Shadyside’s procedures for submitting Medicare claims;

    •   discussed the incorrectly billed claims with Presbyterian Shadyside personnel to
        determine the underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Presbyterian Shadyside officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                         10
                            APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                      Selected          Value of             Claims With            Value of
                  Risk Area                           Claims        Selected Claims         Overpayments          Overpayments
Inpatient
Claims Billed With High Severity Level
                                                            33            $699,761                   16                $299,468
Diagnosis-Related Group Codes
Short Stays                                                 58              390,650                  25                 153,443
Manufacturer Credits for Replaced Medical
                                                            65            2,031,647                  25                 105,843
Devices
 Inpatient Totals                                         156           $3,122,058                   66                $558,754



Outpatient
Manufacturer Credits for Replaced Medical
                                                            24              398,991                  14                 190,154
Devices
Claims Billed During Inpatient Stays                        24               33,714                  24                      33,714

Dental Services                                             10               26,214                    6                     10,574

Claims Billed for Lupron Injections                          1                 3,347                   1                      1,700

Claims Billed With Modifier -59                             24              118,072                    2                      1,306

 Outpatient Totals                                          83            $580,338                   47                $237,448



 Inpatient and Outpatient Totals                          239           $3,702,396                  113                $796,202


        Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
        outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
        billing errors we found at Presbyterian Shadyside. Because we have organized the information differently, the
        information in the individual risk areas in this table does not match precisely with this report’s findings.




        Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                                           11
                APPENDIX C: PRESBYTERIAN SHADYSIDE COMMENTS

                            LIFE

 UPMC                       CHANGING
                            MEDICINE




 August 12, 2013

 Stephen Virbitsky
 Regional Inspector General for Audit Services
 Office of Audit Services, Region III
 Public Ledger Building, Suite 316
 150 S Independence Mall West
 Philadelphia, PA 19106



 Re: Report Number A-03-12-06105 Medicare Compliance Review of UPMC Presbyterian
 Shadyside for Calendar Years 2008 Through 2011

 Dear Mr. Virbitsky-

 I am writing on behalf of UPMC Presbyterian Shadyside, which is in receipt of the above
 referenced draft audit report. Presbyterian Shadyside strives to maintain our culture which
 supports and promotes compliance with applicable federal, state and local laws and
 regulations. This includes implementation of operational procedures and controls to minimize
 the risk of billing errors and a strong compliance monitoring program. An effective program
 provides reasonable assurance that claims billed to Medicare will comply with Medicare laws
 and regulations, but the complexity and ambiguity of the regulations, the systems required to
 process thousands of transactions and the required human intervention can result in
 overpayments and underpayments.

 We have reviewed the draft report in detail and in general agree that the claims identified
 contain some form of error that affected reimbursement. We have reprocessed all claims
 identified by your audit for corrected reimbursement.

 UPMC has a compliance program that continually monitors our internal billing controls and
 makes recommendations as needed based on both internal findings and external input to
 strengthen controls.

 Presbyterian Shadyside has reviewed the recommendation in the report and specifically
 responds as follows:

 Incorrectly Billed as Inpatient

     According to CMS Manual, a patient is considered an inpatient if formally admitted as an
     inpatient with the expectation that he or she will remain in the hospital at least overnight
Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                            12
     and occupy a bed. Furthermore, the decision to admit is a complex medical judgment in
     which a physician must take many factors into consideration including past medical history,
     current medical needs of the patient, types of care available in an inpatient and outpatient
     setting, and the appropriateness of this care for each individual patient. CMS has recognized
     as evidenced by its recent inpatient regulatory proposal, the observation/inpatient decision
     making process is difficult and not always definitive.

     UPMC has made significant efforts to ensure our utilization review processes are compliant
     with established CMS procedures and guidance regarding inpatient admission and billing. In
     accordance with existing requirements for Utilization Review under the Conditions of
     Participation for hospitals (located at 42 CFR §482.30), UPMC has implemented the
     necessary steps to ensure that the level of care is determined in real-time. Care
     management staff uses a screening tool to determine appropriateness of level of care
     determination and consults with a physician advisor as appropriate. In addition, Corporate
     Compliance and Internal Audit periodically monitor the process to assure compliance with
     established policies and procedures.

      UPMC agrees upon retrospective review that 39 of the 156 selected inpatients could have
     been treated in an outpatient or observation setting.

 Manufacturer Credits for Replaced Medical Devices

     Presbyterian Shadyside had a process in place to identify recalls and created a "no charge"
     CDM code to facilitate this. The interdepartmental communication which supported coding
     the claim with the correct condition code, value code and modifiers was not optimal. The
     area implanting the medical device did not always know when a device was covered by a
     warranty. Presbyterian Shadyside immediately developed an interdisciplinary team to
     refine and strengthen the existing process to communicate that a device has been replaced
     to all appropriate parties including the party sourcing the device, return the device per
     manufacturer instructions and have sourcing communicate the percentage and amount of
     any credits received to billing so that they are able to accurately code the bill. Presbyterian
     Shadyside acknowledges the noted errors in coding both inpatient and outpatient device
     replacement claims eligible for credits.

 Incorrectly Billed as Outpatient Claims

     Presbyterian Shadyside often performs specialty services for patients that are inpatients at
     other facilities. These services should be billed to the facility in which the patient is an
     inpatient. An alert is in place to notify the registrar when the patient is registered at any of
     UPMC's facilities as an inpatient. However, the registrar must take action to address the
     potential issue. In the fall 2012, a report was created in the billing department to
     retrospectively correct the claim if a registration issue occurs.




Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                               13
 Incorrectly Billed Medicare Secondary Payer (MSP) Claim

     Although the claim in question was paid incorrectly, Presbyterian Shadyside respectfully
     disagrees that the claim was billed incorrectly. The claim was billed in accordance with MSP
     guidelines. The primary payer payment of $57,122.03 was correctly indicated on the bill
     and the Value Code 44, "Obligated to Accept as Payment in Full" (OTAF) amount, was
     indicated to be $57,132.03. This indicates that only $10 payment was being requested.
     Our Medicare Fiscal intermediary has requested us to roll multiple surgical procedure
     charges into one line for billing purposes. Of note, we did have another MSP claim in the
     sample with similarly rolled charges that paid correctly.

 Noncovered Dental Services

     In the fall 2012, Presbyterian Shadyside automated their previously manual process to move
     dental services not covered by Medicare to "noncovered services" on the claim.

 Incorrectly Billed HCPCS

     Lupron is packaged in two dosage levels, 3.75 mg for endometriosis and 7.5 mg for Prostatic
     Cancer. Each dose has a separate HCPCS code associated with it in the charge description
     master, but two vials of 3.75 mg associated with one code equal the exact dosage
     associated with the other code. Presbyterian Shadyside put a patient gender edit in place
     in September 2011, prior to this audit, to make sure the right HCPCS is associated with the
     claim.

 Presbyterian Shadyside takes its compliance obligations very seriously. The UPMC Office of
 Ethics, Compliance and Audit Services proactively monitors compliance with all regulations
 including billing regulations. Control enhancement recommendations and training are provided
 when areas for improvement are identified.

 The leadership of UPMC Presbyterian Shadyside would like to thank the OIG auditors who
 conducted the review for their professionalism, time and collaboration. Please feel free to
 contact me if you have any questions about UPMC Presbyterian Shadyside's efforts in this
 regard.




 Sincerely,



 Ms. Eileen Simmons
 Chief Financial Officer and Compliance Officer
 UPMC Presbyterian Shadyside




Medicare Compliance Review of Presbyterian Shadyside (A-03-12-06105)                            14
